Report No. DODIG-2012-005                October 28, 2011




        DoD Countermine and Improvised Explosive
         Device Defeat Systems Contracts for the
              Vehicle Optics Sensor System
                                                                  INSPECTOR GENERAL 

                                                                 DEPARTMENT OF DEFENSE 

                                                                    400 ARMY NAVY DRIVE 

                                                               ARLINGTON, VIRGINIA 22202-4704

 
                                                                                                 October 28, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, JOINT IMPROVISED EXPLOSIVE DEVICE DEFEAT
                 ORGANIZATION
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               NAVY INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: DoD Countermine and Improvised Explosive Device Defeat Systems Contracts for
          the Vehicle Optics Sensor System (Report No. DODIG-2012-005)

This report is the third in a series covering DoD Countermine and Improvised Explosive Device
(IED) Defeat Systems programs and associated contracts. Our objective was to determine
whether the Joint Improvised Explosive Device Defeat Organization (JIEDDO) and Army
procurements for the Vehicle Optics Sensor System (VOSS), used on RG-311 and Joint
Explosive Ordnance Disposal Rapid Response Vehicles2 in Iraq and Afghanistan, were
developed, contracted, and managed in accordance with Federal and Defense acquisition
regulations. We determined that JIEDDO and Army procurements for the VOSS were
developed, contracted, and managed in accordance with Federal and Defense acquisition
regulations.

The VOSS is a remotely controlled, gyro-stabilized, multi-sensor camera system. It possesses
powerful zoom, night vision, and thermal capabilities and provides agile target assessment on-
the-move. The VOSS enables enhanced detection of IEDs, their triggering sources, and other
threats at distances significantly greater than the current IED countermeasures. This system
allows for IED neutralization without jeopardizing troops. JIEDDO was established in February
2006 to lead, advocate, and coordinate all DoD actions in support of Combatant Commanders’
and their respective Joint Task Forces’ efforts to defeat IEDs. In October 2009, JIEDDO
transferred the VOSS program to the Army Program Executive Office Ammunition.


VOSS Program Requirements and Development
The Army identified critical needs based on evolving in-theater IED threats. Therefore, VOSS
program officials acquired 797 VOSSs through four Operational Need Statements (ONS) and
Joint Urgent Operational Need Statements (JUONS) in accordance with the ONS and JUONS
                                                            
1
  The RG-31 Mine Protected Armored Carrier is a 4 by 4 armored vehicle with all steel, welded armor and a hull
that protects the crew against rifle fire and anti-tank mine detonations. The RG-31 carries a crew of 10 soldiers,
9 soldiers plus the driver.
2
  The Joint Explosive Ordnance Disposal Rapid Response Vehicle is a joint service vehicle whose 6 by 6 design has
a ring mount for crew-served weapons and an armored V-shaped hull that deflects the blast from a medium-sized
IED blast outward, increasing the chance for survival for those inside the vehicle. They are classified as Category II
Mine Resistant Ambush Protection vehicles.


 
processes. These processes are detailed in the Chairman of the Joint Chiefs of Staff Instruction
3470.01, “Rapid Validation and Resourcing of Joint Urgent Operation Needs (JUONS) in the
Year of Execution,” July 9, 2007, and Army Regulation 71-9, “Force Development Materiel
Requirements,” April 30, 1997.

JIEDDO and Army G-83 funded the acquisition of the 797 VOSSs because the VOSS is a
commercial item and considered a non-Program of Record (non-POR). A non-POR does not
receive Program Objective Memorandum (POM)4 funding and is not listed in the Future Years
Defense Program.5

VOSS program officials used the Capabilities Development for Rapid Transition (CDRT) 6
process, which allows Army programs to rapidly transition to sustained acquisition PORs. The
VOSS program will be considered a sustained acquisition POR once it has an approved
Capability Production Document, a Milestone C decision, and its own funding in the DoD
budget. CDRT Iteration Number 6 recommended the VOSS for rapid transition to a sustained
acquisition program of record. To prepare for this transition, the program office revised the
capability production document, which included a requirement for the sustainment and support
of 1,031 VOSS systems. In February 2011, the VOSS program office submitted the POM
funding request for FYs 2013 through 2018. The program office estimated that if VOSS funding
is included in the POM, as approved by the Secretary of Defense, the VOSS would become an
Acquisition Category (ACAT) III program7 at the Milestone C (full-scale production) point. As
of September 2011, this process was still ongoing, and the Army will not procure additional
VOSSs unless another urgent need is approved by Central Command or the VOSS becomes a
valid acquisition program of record.




                                                            
3
  Army G-8 is the Army’s lead for matching available resources to the defense strategy and Army plan. Army G-8
plans, develops, and resources programs supporting soldiers and balances current force needs with future force
needs.
4
  The POM is the final product of the programming process within DoD. A DoD Component’s POM contains the
resources allocations decision, specifically the program needs for 6 years (for example, in FY 2008, POM 2010-
2015 was submitted).
5
  The Future Years Defense Program is a DoD database and internal accounting system that summarizes forces and
resources associated with programs approved by the Secretary of Defense.
6
  The CDRT is a process used to rapidly approve commercial or government-produced tactical nonstandard
equipment, already in use in current military operations, to become sustained Army acquisition programs. The
Army Requirements Oversight Council makes all final CDRT decisions, known as iterations, to either: (1) endure
the capability and become an acquisition program, (2) sustain the capability, or (3) terminate the system.
7
  ACATs are categories established to facilitate decision making, execution, and compliance with statutorily
imposed requirements. The different categories determine the level of review, decision authority, and applicable
procedures. ACAT III programs are defined as acquisition programs that do not meet the criteria of ACAT II
programs.

                                                               2

 
VOSS Contracts Were Properly Awarded
The contracting officers complied with the Federal Acquisition Regulation (FAR) requirements
relating to the acquisition of commercial items, source selection, and contract pricing.
Procedures for awarding the contracts included the following.

       • 	 Justified Commercial Item Determinations: The VOSS is a commercial item sold to
           the general public, such as private security firms and cinematographers.
       • 	 Adequate Competition: Contracting officers used the best value method to evaluate
           technical and price proposals for full and open competition from 5 offerors for
           procuring 597 VOSSs. They also used sole-source contracts to acquire spares and
           repair parts.
       • 	 Appropriate Contract Type: Contracting officers issued firm-fixed-price delivery
           orders for the VOSS and issued time-and-materials delivery orders for installation
           and training.
       • 	 Acceptable Fair and Reasonable Price Determinations: Contracting officers
           established price reasonableness with a price analysis that showed a comparison
           of proposed prices with an independent government cost estimate and a comparison
           of proposed prices with prices obtained through market research for the same item.


VOSS Program Management Complied With Requirements
Defense Contract Management Agency (DCMA) officials complied with FAR requirements for
contract administration services associated with monitoring contractor performance.
Specifically, DCMA quality assurance representatives were co-located within the contractor’s
facility, allowing accurate reporting of contract performance. Quality assurance representatives
performed production surveillance and inspected for count, kind, and condition of the VOSS.
DCMA had not issued any product quality deficiency reports regarding the VOSS.

We verified written correspondence supporting contract administration procedures detailed in a
December 5, 2008, memorandum of agreement between the Product Manager Countermine and
Explosive Ordnance Disposal and DCMA St. Petersburg, Florida. The memorandum of
agreement defined DCMA’s responsibilities for reporting requirements and effective program
management. In accordance with the agreement DCMA was required to provide contract
administrative support, industrial specialist support, quality support, and transportation support.

Review of Internal Controls
JIEDDO and Army internal controls for developing, contracting, and managing the VOSS
program were effective as they applied to the audit objectives.

Audit Methodology
We conducted this audit from March 2011 through October 2011 in accordance with generally
accepted government auditing standards. Generally accepted government auditing standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a

                                                 3

 
reasonable basis for our conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objectives.

To meet each of our audit objectives, we reviewed three primary areas.

    1.	 VOSS Program Requirements and Development
           • 	 We interviewed VOSS program office, contracting, and administrative personnel
               who developed VOSS requirements and the statement of work.
           • 	 We determined whether the VOSS program office performed the acquisition
               planning and market research in accordance with the FAR.
           • 	 We reviewed the contracting office determination that the VOSS item met the
               FAR definition of a commercial item and whether the contracting office complied
               with FAR and Defense Federal Acquisition Regulation Supplement requirements
               relating to the acquisition of commercial items and obtaining data other than
               certified cost or pricing data.
           • 	 We interviewed program office personnel and JIEDDO representatives regarding
               the Army’s ONS and JUONS processes and their effect on the VOSS program.
           • 	 We obtained and reviewed all VOSS funding documents supporting the VOSS
               requirements in the ONS and JUONS process.

    2.	 Voss Contract Awards
           • 	 We reviewed all VOSS contracts with the Marine Corps Systems Command and
               the Army Program Executive Office Ammunition and determined the total
               number of VOSS camera systems that the Army procured.
           • 	 We evaluated the request for proposal, statement of work, acquisition
               plan/strategy, source selection plan, price and technical evaluation board
               documents, source selection board documents, and the source selection decision
               document to determine whether there were any inconsistencies in the evaluation
               of the proposals and whether they were in accordance with FAR.
           • 	 We determined the order of the source selection/evaluation factors and the weight
               of each factor and concluded that the rating scheme was in accordance with FAR
               Subpart 15.3, “Source Selection.” In addition, we determined that all award
               factors and significant sub-factors were clearly stated in the solicitation and that
               the agency evaluated competitive proposals and assessed relative qualities solely
               on the factors and sub-factors specified in the solicitation.
           • 	 We determined that the contracting personnel properly negotiated the basic
               contract; including determining that the price was fair and reasonable and that an
               independent government cost estimate was completed. See the following table for
               a summary of VOSS contracts reviewed.




                                                4

 
                                   VOSS Contracts Reviewed
                                                                                   Fair and
                            Contract         Contract         Competition
    Contract Number                                                               Reasonable
                             Date             Cost              Type
                                                                                    Price
                                                                Limited
    M67854-06-D-5034         5/31/06        $53,808,000                                Yes
                                                               Competition

                                                             Letter Contract,
    W909MY-07-C-0011         1/22/07         $3,888,469                                Yes
                                                              Sole Source

    W909MY-07-D-0002         8/27/07        $43,400,000        Sole Source             Yes

                                                             Letter Contract,
    W909MY-07-C-0023         9/10/07        $24,950,000                                Yes
                                                              Sole Source

    W909MY-08-D-0004          5/5/08        $380,000,000      Full and Open            Yes

    W909MY-11-P-0002         3/11/11         $3,396,970        Sole Source             Yes




      3.	 VOSS Program Management
            • 	 We determined that DCMA monitored contractor performance in accordance with
                the FAR, including the contracting officer’s technical representative (COTR)
                technical evaluation procedures and execution of quality surveillance plans.
            • 	 We determined that the contract modifications in the contract delivery order and
                task orders were within the scope of the original contract in accordance with FAR
                Part 43, “Contract Modifications.”
            • 	 We obtained written procedures and correspondence to support the contract
                administration procedures and the letters of delegation from the procurement
                contracting officer to the administrative contracting officer and COTR in
                accordance with the FAR and the Defense Federal Acquisition Regulation
                Supplement.

We visited the project manager for Close Combat Systems, Fort Belvoir, Virginia, and DCMA in
St. Petersburg, Florida, to review the selected VOSS program acquisition and contracting
documentation. We interviewed program personnel at JIEDDO, the VOSS program office, the
Marine Corps Systems Command, and DCMA. At these locations, we reviewed requirements,
contracting, and contract administration documentation from May 2006 to March 2011 to
determine whether contract solicitations and awards met Federal and Defense acquisition
regulations.




                                                 5

 
Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used posted notices on
the Federal Business Opportunities Web site (http://www.fedbizopps.gov), the data reported in
Federal Procurement Data System Next Generation, Excluded Parties List System, U.S. Federal
Contractor Registration, and contract documentation from the Electronic Document Access and
the Army Paperless Contract Files, posted from May 2006 through July 2011. We tested
contracting data accuracy and consistency by comparing the data produced in these systems and
determined the data to be sufficiently reliable for our audit purposes.


Prior Audit Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD Inspector
General (IG) have issued 10 reports discussing DoD Improvised Explosive Device projects.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-342, “More Transparency Needed over the Financial and Human
Capital Operations of the Joint Improvised Explosive Device Defeat Organization,” March 2008

GAO Report No. GAO-10-95, “Warfighter Support: Actions Needed to Improve Visibility and
Coordination of DoD’s Counter-Improvised Explosive Device Efforts,” October 2009

GAO Report No. GAO-10-186T, “Warfighter Support: Challenges Confronting DoD's Ability
to Coordinate and Oversee its Counter-Improvised Devices Effort,” October 29, 2009

GAO Report No. GAO-10-460, “Warfighter Support: Improvements to DoD's Urgent Needs
Processes Wound Enhance Oversight and Expedite Efforts to Meet Critical Warfighter Needs,”
April 2010

GAO Report No. GAO-10-660, “Warfighter Support: Actions Needed to Improve the Joint
Improvised Explosive Device Defeat Organization's System of Internal Control,” July 2010

DoD IG
DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27, 2007

DoD IG Report No. D-2008-078, “Training Requirements for U.S. Ground Forces Deploying in
Support of Operation Iraqi Freedom,” April 9, 2008

DoD IG Report No. D-2008-115, “Status of Training Vehicles for U.S. Ground Forces
Deploying in Support of Operation Iraqi Freedom,” August 6, 2008

DoD IG Report No. D-2010-032, “DoD Countermine and Improvised Explosive Device Defeat
Systems Contracts - Husky Mounted System,” December 31, 2010



                                              6

 
DoD IG Report No. D-20 11-1 05, "Competition for IntelTogation Arm Contracts Needs
Improvement," September 19,2011


We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9071 (DSN 664-9071). If you desire, we will provide a formal briefing on the results.




                                            Deputy Assistant Inspector General
                                            Acquisition and Contract Management




                                               7

